<html>
<title> - MISCELLANEOUS LAND BILLS</title>
<body><pre>[Senate Hearing 107-373]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-373

                        MISCELLANEOUS LAND BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 691                                S. 1451

                           S. 1028                               H.R. 223

                           S. 1240


                                     
                               __________

                           NOVEMBER 27, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources


78-597              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman
DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
BYRON L. DORGAN, North Dakota        CONRAD BURNS, Montana
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARY L. LANDRIEU, Louisiana          DON NICKLES, Oklahoma
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
DIANNE FEINSTEIN, California         CRAIG THOMAS, Wyoming
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           RICHARD C. SHELBY, Alabama

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                         Kira Finkler, Counsel
                       Jeff Mow, Bevinetto Fellow


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bennett, Hon. Robert F., U.S. Senator from Utah..................     6
Craig, Hon. Larry E., U.S. Senator from Idaho....................     2
Fulton, Tom, Deputy Assistant Secretary for Land and Minerals 
  Management, Department of the Interior.........................    11
Johnson, Hon. Tim, U.S. Senator from South Dakota................     2
Kimbell, Abigail, Acting Associate Deputy Chief, Forest Service, 
  Department of Agriculture......................................    13
Reid, Hon. Harry, U.S. Senator from Nevada.......................     3
Todd, Larry, Director of Operations, Bureau of Reclamation.......    15
Udall, Hon. Mark, U.S. Representative from Colorado..............     8
Wyden, Hon. Ron, U.S. Senator from Oregon........................     1

                                APPENDIX

Additional material submitted for the record.....................    21

 
                        MISCELLANEOUS LAND BILLS

                              ----------                              


                       TUESDAY, NOVEMBER 27, 2001

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order. This 
subcommittee has put a special focus on trying to approach 
issues relating to the forests and public lands in a fashion 
that brings people together. Again and again we have seen that 
if you get people to set aside some of their old views and some 
of their old theories about how work was done in the past you 
could make remarkable advances.
    Senator Craig and I are especially proud of the fact that 
we were able, with the help of colleagues, to rewrite the 
system for paying for schools and roads in resource-dependent 
communities, and we would like this session to also build on 
approaches with respect to forestry that help define the common 
ground and help to bring people together.
    This afternoon, we will have a chance to receive testimony 
on several public lands and national forest bills that do 
exactly that. S. 691 would convey approximately 24 acres of 
national forest system lands located within the Lake Tahoe 
Basin Management Unit in Nevada to the Secretary of the 
Interior; H.R. 223 would amend the Clear Creek County, Colorado 
Public Lands Transfer Act of 1993 to provide additional time 
for the county to dispose of certain lands transferred to it; 
S. 1028, the Blunt Reservoir and Pierre Canal Land Conveyance 
Act; S. 1451, to convey approximately 2,800 acres of public 
land to Clark County, Nevada, for use as a shooting range; S. 
1240, to authorize the land exchange and construction of an 
interagency administrative and visitor facility at the entrance 
to American Fork Canyon in Utah.
    We want to welcome our witnesses today, particularly our 
colleagues. We also want to note that John Cooper, Secretary of 
Game, Fish, and Parks for the State of South Dakota was 
scheduled to testify as a witness, but due to a blizzard that 
shut down his airport he is not going to be with us today. His 
written statement will be made a part of the official record.
    We have three colleagues who all have a great interest in 
Western and public lands issues, and first we want to recognize 
a distinguished member of the Democratic leadership who is 
here, Senator Harry Reid, who we worked with often over the 
years and appreciate the constructive way he tackles these 
issues, and Senator Reid, we welcome you for any comments you 
would like to make.
    [A prepared statement from Senators Craig and Johnson 
follow:]

   Prepared Statement of Hon. Larry E. Craig, U.S. Senator From Idaho

    I would like to thank Chairman Wyden for holding this hearing to 
begin addressing the backlog of proposed legislation facing this 
Subcommittee. I particularly appreciate the commitment made, to my 
staff, to hold a hearing on S. 198, the Harmful Nonnative Weed Control 
Act of 2000, early next year.
    Like most of the five bills that we will be reviewing today, S. 198 
is critically needed to help local government deal with a scourge of 
non-native weeds on both private, as well as public land. Dealing with 
these weeds are costing the local governments hundreds of millions of 
dollars each year. S. 198 will provide assistance to eligible weed 
management entities in carrying out projects to control and eradicate 
harmful, non-native weeds on public and private lands. It will help 
leverage additional funding from a variety of public and private 
sources to control or eradicate weeds through local stakeholders. And 
most importantly promote healthy, diverse, and desirable plant 
communities by abating the threat posed by harmful, non-native weeds.
    While I do have some questions on several of the bills we will be 
covering in today's hearing, I will be submitting them to our witnesses 
for their written responses.
    Again, thank you Chairman Wyden for getting on with the business of 
this Subcommittee.
                                 ______
                                 
 Prepared Statement of Hon. Tim Johnson, U.S. Senator From South Dakota

    Mr. Chairman, I am pleased that we are taking the time to consider 
S. 1028, the Blunt Reservoir and Pierre Canal Land Conveyance Act of 
2001. John Cooper, the Secretary of the South Dakota Department of 
Game, Fish and Parks has worked extensively on this bill and was 
supposed to testify in support of it today, but is unable to attend 
because of the blizzard that hit the state yesterday. Despite his 
absence, I want to congratulate him on his efforts and for working with 
Senator Daschle and myself to craft this legislation for his service to 
South Dakota. Secretary Cooper works tirelessly as a steward of the 
land and the environment in South Dakota and is to be commended for his 
work. Senator Daschle has worked extensively to develop a consensus on 
this issue and I would like to commend him for his leadership.
    S. 1028 is the product of more than three years of discussion with 
local landowners, the South Dakota Water Congress, the U.S. Bureau of 
Reclamation, local legislators, representatives of South Dakota 
sportsmen groups and other affected citizens.
    S. 1028 would convey certain parcels of Federal land from the 
failed Oahe project to the Commission of Schools and Public Lands and 
the Department of Game, Fish and Parks of the State of South Dakota. 
The conveyance of land would serve several purposes, including the 
mitigation of lost wildlife habitat. The bill would ensure that the 
current preferential leaseholders shall have an option to purchase the 
parcels from the Commission.
    The Oahe Unit was originally approved as part of an overall plan 
for water development in the Missouri River Basin that was incorporated 
in the Flood Control Act of 1944. The initial stage of the project 
included a system of main canals, such as the Pierre Canal, running 
east from the Oahe Reservoir, and the establishment of regulating 
reservoirs, including the Blunt Dam and Reservoir, located 
approximately 35 miles east of Pierre, South Dakota.
    A total of 17,878 acres of land were acquired from willing sellers 
for the proposed Blunt Reservoir feature during the 1970's. Additional 
land was acquired for the Pierre Canal feature. After the growth of 
opposition to the project, construction on the Oahe unit was in 1977. 
Subsequently, Congress stopped providing funds for the project.
    In response to this situation, the Bureau of Reclamation gave to 
those persons, and their descendants, who willingly had sold their 
lands to the project the right to lease those lands and use them as 
they had in the past until they were needed by the Federal Government 
for project purposes. From 1978 to the present, the Bureau of 
Reclamation has administered these lands on a preference lease basis 
for those original landowners or their descendants, and on a non-
preferential basis for lands under lease to persons who had not 
previously owned or controlled the land.
    Currently, the Bureau of Reclamation administers 12,978 acres as 
preferential leases and 4,304 acres as non-preferential leases in the 
Blunt Reservoir. However, the lands are not currently in their original 
condition. Various stockpiled materials, fences, access roads, road 
detours, and other items left by the Bureau remain on the land. The 
Bureau conducts minimum maintenance on these facilities and, in FY 
2002, budgeted $90,000 for operation and maintenance activities, and 
$65,000 for resource management activities on the Oahe Unit.
    Moreover, the Oahe project was a part of the overall Pick-Sloan 
Missouri Basin program, which included four major dams across the 
Missouri River that caused the loss of approximately 221,000 acres of 
fertile, wooded bottomland that was productive wildlife habitat. Under 
the provisions of the Wildlife Coordination Act of 1958, the State of 
South Dakota has developed a plan to mitigate a part of this lost 
wildlife habitat. By transferring the non-preferential lease lands to 
the SD Department of Game, Fish and Parks, S. 1028 would satisfy, in 
part, this habitat mitigation obligation.
    Mr. Chairman, this a balanced bill that has been introduced after 
long discussion between the interested parties and the state of South 
Dakota. The bill would address the concerns of those who have been 
affected for a generation by the Oahe project while protecting wildlife 
in the area. I urge the Committee and the Senate to pass S. 1028.

          STATEMENT OF HON. HARRY REID, U.S. SENATOR 
                          FROM NEVADA

    Senator Reid. Mr. Chairman, thank you very much. There are 
two issues which I am here to talk about today. One is bill S. 
691, which would convey 24.3 acres of land to the Washoe Tribe 
of Nevada and California.
    This bill, which is sponsored by not only me but Senator 
Ensign, conveys a small parcel of land from the Lake Tahoe 
Basin Management Unit of the Forest Service to the Secretary of 
the Interior to be held in trust for the Washoe Tribe. They 
would use this for noncommercial, traditional tribal purposes.
    Mr. Chairman, this is something that the tribe feels very 
strongly about. When the President came to do the summit in 
Lake Tahoe 4 years ago, this was a commitment made to the 
tribe. No one disagrees with this. It is something that should 
be done.
    Keep in mind that the Washoe Tribe in generations past, 
this lake was their lake, and now we are going to give them 
24.3 acres to allow them to do some things that will not only 
be good for them but also the lake, and the tribal chairman, 
Brian Wallis, has been back here I do not know how many times 
on this single piece of legislation. This is important, Mr. 
Chairman, for a spiritual purpose for the Washoe Tribe.
    This lake has long been part of the civilization and 
culture of the Washoe Tribe. It is fundamental, Chairman Wallis 
says, and I believe him, to who they are as a people, so I 
would hope that this committee would give swift approval of 
this.
    The second bill, Mr. Chairman, the State of Nevada is 87 
percent owned by the Federal Government. No State in the Union 
has anywhere comparable to that. Eighty-seven percent of the 
State of Nevada is owned by the Federal Government. Las Vegas 
had this tremendous growth, now is about 1\1/2\ million people. 
The things that happen their traditionally are, people go out 
and shoot. Law enforcement has a shooting range. There were 
various places that people could go just for recreational 
purposes. You cannot do that any more. You wind up shooting 
people. It is a heavily urbanized area. Nevada is the most 
urban State in America. Ninety percent of the people of Nevada 
live in two metropolitan areas, Reno and Las Vegas, and this 
land that we ask be conveyed has the approval of everyone. It 
has the approval of the environmental community, it has the 
approval of the shooters, the sportsmen. There is no one that 
opposes this. It is a unique thing for Nevada and maybe other 
places we have so many people agreeing this will be the right 
thing to do.
    This would be for recreation, education, competitive 
marksmanship events, and training related to firearms. Firearms 
training facilities would be owned and operated by Clark 
County.
    I would hope that this is something the committee would 
recognize would be of great public benefit by creating a safe, 
centralized location for this important purpose. It will 
enhance public safety by reducing indiscriminate shooting. The 
facility will also provide economic incentives to Las Vegas in 
the form of jobs and support services.
    Senator Wyden. I think you have done an excellent job, you 
and your constituents, in working together to find that common 
ground. Before you came in we talked about the work that 
Senator Craig and I have prioritized in terms of trying to find 
these approaches that illustrate that you can have multiple 
uses co-existing side by side.
    I am going to support your bill very strongly. I want to 
recognize our colleagues, if they have any questions for 
Senator Reid, because I know his schedule is tight, and after 
we have questioning for Senator Reid we will go to our other 
colleagues. Conrad, do you or Craig have questions?
    Senator Burns. Just on the land, Senator Reid, around Lake 
Tahoe, to the Washoe Tribe. Did they offer any other land for 
trade for that area, land of lesser value, maybe?
    Senator Reid. I say, Senator Burns, the Washoe Tribe is not 
one of the tribes in Nevada that has huge amounts of land. They 
have very limited land anyway, so the answer is no. This land, 
if you were going to sell it, it would probably be worth some 
money, but of course we are not selling land around the lake, 
and as I indicated in my testimony earlier, this is something 
that no one opposes.
    The development community around Lake Tahoe thinks this 
would be good for the lake. The State of Nevada, the Governor 
supports this. The State legislature supports it. Senator 
Ensign supports it, and the Democratic and Republican House 
member in the House of Representatives supports this.
    Senator Burns. The 23 acres is all on the Nevada side of 
the lake?
    Senator Reid. Yes, it is.
    Senator Burns. I have no other questions.
    Senator Wyden. Senator Thomas.
    Senator Thomas. Thank you. You mentioned in your testimony 
that this is religious and cultural, spiritual. There are some 
other propositions to dispose of lands that are belonging to 
churches or this and that. Does this sort of set a precedent? 
What if you transferred everything that had a cultural purpose 
to it to whoever?
    Senator Reid. I would say, Senator Thomas, this is such a 
unique place, and the transfer of the land is to a people that 
believe very fervently in their ancestral rights to this land, 
and I would say that during our entire efforts, and they have 
been bipartisan in nature, to do something to rehabilitate that 
lake, the Washoe Tribe, which is the only one that has any 
rights whatsoever as far as Indians to this land, have not, in 
any way, stood in our way of doing all the things that need to 
be done, as happens in other things I have tried to do where 
Native Americans are involved.
    Here, they have been with us shoulder to shoulder. They 
have helped us, and this in effect was an effort--I will not 
say it is a compromise, because they have not been greedy in 
asking for a lot of things, but it was felt that there should 
be a small area of this lake, which is 74 miles around this 
lake, to set aside 24.3 acres to indicate to people who come to 
that lake that there was a time in the past where the Indians 
controlled this, and people would be able to come to this 
facility and there would be exhibits and other things that the 
Indians would do there to show the traveling public that the 
Washoe Tribe at one time controlled this lake.
    Senator Thomas. And I have no problem with it, but I am 
sometimes concerned about the precedent. You could say the same 
thing about Devil's Tower. You could say the same thing about 
the Medicine Wheel and the Big Horn Mountains, that these are 
spiritual things for the tribes, and therefore they ought to 
have them, so I think it is something we ought to think about 
from time to time.
    Senator Reid. I appreciate that. I would just say this. 
President Clinton made a commitment to this, and also the only 
political appearance that President Bush made in the State of 
Nevada during his campaign was at Lake Tahoe. It shows that he, 
I guess, believes in quality, not quantity, because it was 
enough to carry the State, but he recognized Lake Tahoe as 
being a place that is a treasure of this country.
    It is shared by Nevada and California, but I repeat, 
President Bush came there, and he came there and the Washoe 
Tribe was part of the delegation that welcomed him there, I 
mean, so this is something--I have not personally spoken to the 
President. Perhaps I should have, but I would almost bet 
anything that he would favor this.
    Senator Thomas. If he was there and President Clinton was 
there it is spiritual land, certainly.
    [Laughter.]
    Senator Thomas. But you know--and I do not mean to be 
argumentative, but the very thing you are saying is that this 
is something the American people--well, if it is the American 
people, it is just an idea that we ought to keep in mind.
    Senator Reid. I would say to you, Senator Thomas, I 
understand the point you are making, and if I thought in any 
way they were being gluttonous in trying to take too much of 
the 74 miles around that lake, I would be the first to speak 
out against it, but this is just a tiny speck, I think a tiny 
speck to show them respect.
    Senator Thomas. I understand. Thank you.
    Senator Burns. Senator, I have a follow-up question. How 
much shoreline is in that 23 acres?
    Senator Reid. You know, I cannot tell you. It is a very 
little, just a very small amount. I have been there at the 
site. I can tell you it is not very much.
    Senator Burns. Thank you.
    Senator Reid. We will make sure that that is part of the 
record, but it is just a--maybe, I would say, frontage, less 
than an acre probably, but I would have to get you that exact 
information.
    Senator Wyden. Senator Reid, we will work very closely with 
you and our colleagues to move this package just as 
expeditiously as we possibly can. I think you have done yeoman 
work with all the stakeholders trying to build a consensus 
approach. All of us from States in the West, where the Federal 
Government owns more than 50 percent of the land, know that 
that is a big challenge. I think you have done an excellent 
job, and unless you have anything further, we will excuse you.
    Senator Reid. Thank you very much, Mr. Chairman.
    Senator Wyden. Thank you.
    It is very good to have our colleague Senator Bennett. It 
is always a pleasure to be able to work with you, and why don't 
you proceed in any way you would like, Bob.

       STATEMENT OF HON. ROBERT F. BENNETT, U.S. SENATOR 
                           FROM UTAH

    Senator Bennett. Thank you very much, Mr. Chairman. I 
appreciate being back here. I keep hoping for the time when I 
can come back on the committee as a third A, but it is popular 
enough that everybody else keeps filling up before it comes 
back to me.
    As you know, Mr. Chairman, I introduced S. 1240 last July. 
Let me give you a little bit of background for this. Its 
purpose is to help both the National Park Service and the U.S. 
Forest Service serve the public better at the facility at the 
mouth of American Fork Canyon in Highland, Utah. This facility 
would serve both agencies, because it would serve both the 
Timpanogos Cave National Monument, which is a unit of the 
National Park Service, and the Uinta National Forest Pleasant 
Grove Ranger District, which is a unit of the Forest Service, 
and both services are currently housed in substandard 
facilities.
    There was a visitor's center at Timpanogos Cave, which was 
destroyed by fire in 1991, and they moved into a trailer in 
1992 as temporary quarters, and just as we know there is 
nothing more permanent than a temporary Government agency, 
there are few things as permanent as a temporary Government 
facility, and we are now coming up 10 years with that trailer, 
and it is still being used. There are approximately 150,000 
people a year that go visit the cave. The trailer is easily 
overrun on many days of high visitation.
    In addition, it has been damaged by rockfall. There are 
some significant maintenance and public safety issues, and it 
is time to retire the trailer.
    Now, the Pleasant Grove Ranger District is located in a 
1950's era building that was not designed for today's staffing 
requirements. This is half a century old now, cannot meet the 
communications and computing needs of the Forest Service, and 
we have an opportunity to combine these two in a single 
facility, which will mean better agency cooperation and 
coordination to serve the public better, and it will save some 
tax dollars all the way around.
    So that is the genesis of the bill. In order to construct 
the new facility we have to acquire 36 acres that are currently 
in private hands that are on the parcel at the key place where 
the facility needs to be, and so we propose a land swap, buying 
these acres with other acres rather than with Federal dollars.
    The land valuation will conform with the uniform appraisal 
standards for Federal land acquisition. It is subject to 
approval by the Secretary of Agriculture to make sure nobody 
gets unduly rich on this. The Department of the Interior is 
instructed to construct the new facility and would be 
responsible for all associated costs.
    So it seems like a fairly straightforward thing to me, and 
I commend it to the committee's consideration.
    Senator Wyden. Senator Bennett, I think this is a very 
constructive and very useful piece of legislation. It is not 
all that dissimilar to a bill that Senator Smith and I did the 
last session. I am going to support it very strongly and help 
us move it ahead quickly, and let again recognize our 
colleagues, Senator Burns and Senator Thomas. No questions?
    Bob, anything you want to add further?
    Senator Bennett. No, sir. I appreciate your consideration.
    Senator Wyden. We will look forward to moving it quickly.
    Senator Bennett. Thank you.
    [The prepared statement of Senator Bennett follows:]
  Prepared Statement of Hon. Robert F. Bennett, U.S. Senator From Utah
    Good afternoon. I thank the committee for holding this hearing 
today. Earlier this year, I introduced S. 1240, the Timpanogos 
Interagency Land Exchange Act of 2001. The goal of my legislation is to 
help both the National Park Service and the United States Forest 
Service serve the public better through the construction of a new 
interagency administrative office and visitor center at the mouth of 
American Fork Canyon in Highland, Utah.
    This new facility will serve both the Timpanogos Cave National 
Monument, a unit of the National Park Service, and the Uinta National 
Forest Pleasant Grove Ranger District, a unit of the United States 
Forest Service. Both agencies are currently located in substandard 
facilities. The visitor center of the Timpanogos Cave National Monument 
was destroyed by a fire in 1991. In 1992, as a temporary measure, the 
National Park Service began use of a trailer approximately 20 feet by 
60 feet in size. This trailer still serves as the visitor center today. 
Annual visitation exceeds 125,000 people and the trailer is easily 
overrun on days of high visitation. Additionally, the trailer has been 
damaged by rock fall, which presents significant maintenance and public 
safety issues. The Pleasant Grove Ranger District is located in a 
1950's era building that was not designed for today's staffing 
requirements and cannot meet the communication and computing needs of 
the Forest Service. The opportunity to house both of these agencies in 
the same facility will foster better interagency coordination and 
cooperation, serve the public better, and generate cost savings.
    In order to construct the new interagency facility, the Forest 
Service has identified several parcels, mostly administrative sites, 
totaling 266 acres that it will exchange for a 36 acre privately owned 
parcel at the mouth of American Fork Canyon in Highland, Utah. This 36 
acre parcel will become the site for the new interagency facility. The 
Forest Service lands do not possess any outstanding resource values and 
are adjacent to private land. Land valuation will conform with the 
``Uniform Appraisal Standards for Federal Land Acquisition'' and is 
subject to approval by the Secretary of Agriculture. The Department of 
the Interior is instructed to construct the new facility and is 
responsible for all associated costs.
    I believe this is simple legislation that will benefit the public 
greatly. It is my hope that the committee will approve this legislation 
at its earliest opportunity. Again, I thank the committee for holding 
this hearing today.

    Senator Wyden. Thanks for coming.
    We are really pleased to have Congressman Mark Udall here 
as well. He also has worked extensively on public lands issues, 
and we appreciate your involvement the last session with the 
county payments bill among other things that are important to 
this committee, and welcome, Mark. We will make your prepared 
remarks part of the record, and you just proceed in any way you 
like.

                 STATEMENT OF HON. MARK UDALL, 
               U.S. REPRESENTATIVE FROM COLORADO

    Mr. Udall. Thank you, Mr. Chairman, and I did want to 
acknowledge the good work you did over here on the school 
receipts funding issue, and I appreciate the flexibility you 
put back in the House bill so the various counties could 
respond to the needs that they see in front of them.
    If I could, I would like to ask unanimous consent to 
include my statement in the record.
    Senator Wyden. Without objection, so ordered.
    Mr. Udall. In addition, I have a letter from the county 
commissioners who have requested this legislation, if I could 
include their letter in the record.
    Senator Wyden. Without objection, so ordered.
    Mr. Udall. I appreciate it, and I would note for this 
committee that the county commissioners have a committee 
composed of three members, one Independent, one Democrat, and 
one Republican, which mirrors this committee's composition as 
well.
    Senator Burns. Which one is chairman?
    Mr. Udall. It rotates, Senator Burns. It rotates.
    Senator Burns. I had a deal like that once.
    Mr. Udall. The bill is a simple amendment to the Clear 
Creek Land Transfer Act of 1993, and Mr. Chairman, what it 
would do is provide the county with an additional 10 years to 
provide for the distribution of lands that the BLM owned in the 
county, many of them inches in measurement, and the exciting 
thing about this, to pick up on your initial comments, is that 
the BLM is working in concert with the county, and the county 
is actually the real estate agent, if you will, for the BLM, so 
any net receipts from the sale of these lands by the county 
returns to the Federal Treasury.
    The county has worked very hard to move these lands, but 
they came to me and said, we need a little bit more time to 
deal with the mining claims and to deal with all the other 
aspects that are involved with the sale of these lands, so this 
would set May 19, 2015 as the new deadline for the county to 
either transfer or retain these lands, and I hope the committee 
can support this legislation. It passed out of the House 
unanimously a couple of months ago.
    Mr. Chairman, with that, I am certainly willing and able to 
answer your questions.
    [The prepared statement of Mr. Udall and referenced letter 
follows:]

      Prepared Statement of Hon. Mark Udall, U.S. Representative 
                             From Colorado

    Thank you, Mr. Chairman, and thank you for holding this hearing on 
my bill.
    I introduced the bill at the request of the Commissioners of Clear 
Creek County, one of the counties in the District I represent. Attached 
to my testimony is a letter from the Commissioners regarding the bill 
and why they are seeking its enactment. I would like to submit that 
letter for the hearing record.
    A similar bill was passed by the House last year, but time ran out 
before the action on it could be completed before the end of the 106th 
Congress. So I am particularly glad that you are considering it today.
    The bill amends section 5 of the Clear Creek Land Transfer Act of 
1993. The effect of the amendment would be to allow Clear Creek County 
additional time to determine the future disposition of some former 
Federal land that was transferred to the county under that section of 
the 1993 Act.
    The 1993 Act was originally proposed by my predecessor, 
Representative David Skaggs.
    Its purpose was to clarify Federal land ownership questions in 
Clear Creek County, while helping to complete consolidation of Bureau 
of Land Management administration in eastern Colorado, and assisting 
with protecting open space and preserving historic sites. Let me 
briefly outline the background and the effect of the bill.
    In the course of its planning, the Bureau of Land Management has 
determined that it would be appropriate and desirable to dispose of 
most of the lands in northeastern Colorado for which it is responsible. 
The 1993 Act advanced that purpose by transferring land in Clear Creek 
County from the BLM to the Forest Service, the State of Colorado, the 
County, and the towns of Georgetown and Silver Plume.
    Even without the 1993 legislation, of course, BLM could have sold 
all these lands, and the local governments could have applied for 
parcels under the Recreation and Public Purposes Act.
    However, before transferring the lands BLM would first have had to 
complete detailed boundary surveys. And since these lands included many 
small, odd-shaped parcels--some measured in inches--BLM estimated that 
boundary surveys would have taken at least another 15 years to 
complete, and could have cost as much as $18 million--even though the 
estimated market value of these lands was only $3 million.
    In other words, because the administrative costs were expected to 
be so much higher than the value of these lands, their disposal under 
existing law probably could never have been completed.
    And this would have been the worst of all outcomes, because, after 
reaching the conclusion that these lands should be transferred, BLM in 
effect stopped managing them--to the extent that they could have been 
managed at all. They were effectively abandoned property--potentially 
attracting all of the problems that befall property left untended and 
ignored.
    The 1993 Act responded to that situation. Under it, about 3,500 
acres of BLM land in Clear Creek County were transferred to the Arapaho 
National Forest. Another 3,200 acres of land were transferred to the 
State of Colorado, the county, and the towns of Georgetown and Silver 
Plume. And, finally, the rest of the BLM lands in Clear Creek County 
were transferred to the County.
    My bill deals only with the lands transferred to the County.
    Under the 1993 Act, some of these lands will be retained by local 
governments for recreation and public purposes. The county is 
authorized to sell the rest, but under conditions that in effect mean 
that the county will act as the BLM's sales agent, because the 1993 Act 
provides that the Federal Government will receive any net receipts from 
the sale of these lands by the county.
    Under the 1993 Act, the county has until May 19, 2004 to resolve 
questions related to rights-of-way, mining claims, and trespass 
situations on the lands that have been transferred to it and then to 
decide which parcels to transfer and which to retain.
    While the County has completed the conveyance of some of these 
lands, they still have several thousand acres to dispose of.
    The County is working on completing the job, and the letter from 
the Commissioners outlines the progress they have made. However, they 
have found that the process is taking longer than they anticipated, and 
that an extension of time would be helpful to a successful conclusion.
    My bill responds to that request by providing that extension. It 
would set May 19, 2015 as the new deadline for the County to either 
transfer or retain these lands. The County Commissioners have indicated 
to me that they are confident that this will be sufficient time for 
them to resolve the matter.
    That is all that is involved and all that the bill would do. There 
is no controversy associated with the legislation, and I urge the 
committee to order it favorably reported for action by the Senate.

                                        Clear Creek County,
                                 Georgetown, CO, November 20, 2001.

United States Senate, Committee on Energy and Natural Resources, 
    Dirksen Building, Washington, DC.

    Dear Senate Committee Members: We are writing in regards to the 
House Bill H.R. 223 to amend the Clear Creek County Public Lands 
Transfer Act. This bill would allow us additional time to determine the 
future disposition of approximately 6,000 acres of land. This extension 
of time would allow us to resolve issues related to rights-of-way, 
mining claims, and trespass situations. Our County has worked 
diligently to distribute the lands as quickly as possible. However, we 
have encountered problems with these related issues as well as high 
staff turnover which has hindered our ability to dispense of the land 
faster.
    To date, our County Lands Department has completed and is planning 
for the following distributions:

  <bullet> Approximately 2,000+ acres of land has been successfully 
        distributed.
  <bullet> Approximately 1,500+ acres of land is planned to be managed 
        and distributed to the Colorado Division of Wildlife and the 
        Big Horn Sheep Society respectively.
  <bullet> Approximately 2,500+ acres of land remains to be distributed 
        due to rights-of-way, mining, and trespass issues.

    As you may know, the bill passed twice in the U.S. House of 
Representatives unanimously. We have been informed that this bill will 
be presented to your committee for a hearing on November 27, 2001. 
There appears to be no opposition or controversy surrounding the bill 
and we hope that your committee will support this bill. This extension 
would assist us in concluding the distribution of the land. Thank you 
and we look forward to hearing from you.
            Sincerely,

            Clear Creek Board of County Commissioners,

                                   Robert J. Poirot, Chairman,
                                   Jo Ann Sorensen, Commissioner,
                                   Fabyan Watrous, Commissioner.

    Senator Wyden. Mark, thank you, and I think this is another 
instance of building a good consensus, sort of home grown 
driven kind of concept with respect to the public lands. I 
commend you for it, and the work you and your constituents have 
done. I will support this bill as well, and I recognize my 
colleagues for any questions.
    Senator Burns. I have only one question. It looks like with 
a split commission like this are you sure 20 years is enough to 
get it done?
    Mr. Udall. Senator, they are very interested in results and 
a pragmatic approach to problem-solving. I think they actually 
trade off which one is the independent and which one is the 
Democrat and which one is the Republican. It is one of those 
kind of counties.
    Senator Burns. I want to know why it takes 20 years to get 
it done when you can do it in half a day.
    Mr. Udall. Many of these small parcels have a lot of 
unresolved questions surrounding them. As I mentioned, some of 
them are literally inches, in some cases measured in yards, and 
they are working with their small, if you will, county 
administrative situation, and they wanted to do it right, and 
they just felt they needed a little bit more time.
    Senator Burns. I do not have any more questions.
    Senator Wyden. Okay. We will try to work to move this as 
quickly as possible, and thanks for coming over, and I look 
forward to working with you all.
    Mr. Udall. Thank you, thank the committee.
    Senator Wyden. Our next panel, speaking for the 
administration, Tom Fulton, Deputy Assistant Secretary for 
Lands and Minerals Management, Department of the Interior, 
Abigail Kimbell, Acting Associate Deputy Chief for the U.S. 
Forest Service, Larry Todd, Director of Operations, Bureau of 
Reclamation.
    Okay, gentlemen, Ms. Kimbell, thank you for coming and 
working with the subcommittee on this. We will make your 
prepared remarks a part of the record in their entirety, and I 
want to begin with you, Mr. Fulton.

 STATEMENT OF TOM FULTON, DEPUTY ASSISTANT SECRETARY FOR LAND 
      AND MINERALS MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Fulton. Thank you very much, Mr. Chairman, Senator 
Thomas. I appreciate the opportunity to testify on the two 
bills that I am testifying on H.R. 223, that Congressman Udall 
introduced, the Clear Creek County, Colorado Public Lands 
Transfer Act, and Senator Reid's bill, S. 1451, which provides 
for the conveyance of public lands in Clark County, Nevada, for 
use as a shooting range.
    The Bureau of Land Management of the Department of the 
Interior and the administration support H.R. 223 and S. 1451, 
1451 with some suggested changes that I will outline in my 
testimony. I will address both of these bills individually.
    H.R. 223 amends section 5 of an Act of 1993, which 
transferred lands of the Bureau of Land Management to Clear 
Creek County, and the act has achieved the goal of 
consolidating BLM lands in Colorado, transferring 14,000 acres 
to Clear Creek County to the Sounds of Georgetown and Silver 
Plume. The bill introduced by Congressman Udall applies to only 
7,003 acres transferred to Clear Creek County.
    The 1993 Act provides that after the county prepared a 
comprehensive land use plan it might in turn resell some of 
those lands. The administration recognizes that the county has 
not yet completed the land use planning of the acreage and 
needs a statutory extension, and that extension would be 
accomplished under H.R. 223. The extension would be May 19, 
2015.
    I agree with the Congressman's view that the complexity of 
the fragmented county land ownership patterns, which are 
intermingled with patented mining claims, require more time and 
effort than initially anticipated, and we are glad to acquiesce 
to the county's request for an extension.
    S. 1451 regards the conveyance of public lands in Clark 
County, Nevada, for use as a shooting range. It provides the 
Secretary of the Interior with special disposal authority to 
convey 2,888 acres of BLM-administered lands to the county for 
the establishment of a centralized shooting facility.
    The Bureau of Land Management has the authority under the 
Recreation and Public Purposes Act to convey BLM-managed lands 
to local governments without compensation for recreation and 
public purposes. However, it is my understand that we are 
limited, the BLM is limited in that transfer to 640 acres. 
Therefore, legislation would be required to transfer land 
greater than the 640 acres for this public and recreational 
purpose. Because the land will be used as a target range both 
for recreational purposes and for training of law enforcement 
officers, that limitation applies.
    We would like to suggest a few changes to this bill to 
improve the administration if enacted, and we would be pleased 
to work with the committee to address those concerns. 
Conveyance of the lands would result in certain administrative 
costs such as resurvey which would be likely required, since 
the area would have common property boundaries with other land 
ownerships that could create use conflicts without a specific, 
defined property boundary. For this reason, we suggest the bill 
be amended to include language providing compensation by Clark 
County to the BLM for survey costs and other administrative 
costs related to preparation of transfer of title.
    Additionally, the United States must avoid potential for 
hazardous waste liability from any property that reverts to the 
United States. We suggest an amendment that Clark County be 
required to clean up any hazardous waste or other contamination 
prior to the possible reversion to the United States.
    That concludes my statement. I would be glad to answer any 
questions.
    [The prepared statement of Mr. Fulton follows:]

 Prepared Statement of Tom Fulton, Deputy Assistant Secretary for Land 
          and Minerals Management, Department of the Interior

    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear here today to testify on two bills: H.R. 223, a 
bill to amend the Clear Creek County, Colorado, Public Lands Transfer 
Act of 1993; and S. 1451, to provide for the conveyance of certain 
public lands in Clark County, Nevada for use as a shooting range. The 
Bureau of Land Management (BLM) supports H.R. 223 and S. 1451 with 
suggested changes. I would like to address each of these bills 
individually.
H.R. 223--a Bill To Amend the Clear Creek County, Colorado, Public 
        Lands Transfer Act of 1993
    H.R. 223 amends section 5 of the Clear Creek County, Colorado, 
Public Lands Transfer Act of 1993 by extending until May 19, 2015, the 
time allowed Clear Creek County to sell certain lands that it received 
from the BLM under the 1993 Act.
    The 1993 Act helped achieve the goal of consolidating BLM 
administration in eastern Colorado by transferring approximately 14,000 
acres of land from the BLM to the U.S. Forest Service, to the State of 
Colorado, to Clear Creek County, and to the towns of Georgetown and 
Silver Plume.
    H.R. 223 applies only to 7,300 acres that were transferred to Clear 
Creek County. The 1993 Act provides that, after the county prepares a 
comprehensive land use plan, the county may in turn resell some of 
those lands. The BLM recognizes that Clear Creek County has not 
completed the land use planning of the acreage conveyed by the United 
States and needs a statutory extension. Under H.R. 223, the new 
deadline would be May 19, 2015.
    The complexity of the fragmented county land ownership, 
intermingled with patented mining claims, requires much more time and 
effort than was initially anticipated, and will require most--if not 
all--of the ten-year extension. We understand that Clear Creek County 
will be able to complete the conveyance of these remaining lands with 
this extension of time and therefore we support this bill.
S. 1451--Conveyance of Public Lands to Clark County, Nevada for Use as 
        a Shooting Range
    S. 1451 provides the Secretary of the Interior with special 
disposal authority to convey 2,880 acres of BLM administered lands in 
Clark County, Nevada, to the County for the establishment of a 
centralized shooting facility in the Las Vegas valley.
    In the Recreation and Public Purposes Act (R&PP), Congress 
recognized the benefit of conveying BLM-managed public lands to local 
governments without compensation for recreation and public purposes. 
Under the R&PP the Secretary can convey up to 6,400 acres of public 
lands to a political subdivision of a State without compensation for 
recreation purposes. The R&PP limits conveyances for public purposes 
other than recreation to 640 acres. Because this land will be used as a 
target range both for recreational purposes and for training of law 
local law enforcement officers, the 640 acre limitation appears to 
apply and this legislation is needed.
    We would like to suggest a few changes to this legislation to 
improve the administration of this bill if enacted and would be pleased 
to work with the committee to address these concerns.
    The conveyance of these lands by the BLM will result in certain 
administrative costs. For example, a resurvey will likely be required 
since the area would have common property boundaries with other land 
ownerships that could create use conflicts without a specific defined 
property boundary. For this reason we suggest that the bill be amended 
to include language providing compensation by Clark County to the BLM 
for survey costs and other administrative costs related to the 
preparation of patents and transfer of title.
    Additionally, the United States must avoid the potential for 
hazardous waste liability from any property that reverts to the United 
States under Section 1 (e) (2) of the bill. We suggest an amendment 
that Clark County be required to clean up any hazardous waste 
contamination prior to reversion to the United States.
    This concludes my statement. I would be happy to answer any 
questions.

    Senator Wyden. Thank you. Ms. Kimbell. Let us get you one 
of those microphones.

 STATEMENT OF ABIGAIL KIMBELL, ACTING ASSOCIATE DEPUTY CHIEF, 
           FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Ms. Kimbell. Thank you for the opportunity to appear before 
you today, and I am suffering from a bit of a cold, so I 
apologize ahead of time if I have to stop to clear my throat.
    I am testifying today on S. 691 and S. 1240. The Department 
of Agriculture supports and is facilitating the use of the 
Washoe Tribe of their historical lands for most of the purposes 
identified in S. 691. However, the administration has not 
completed its review of this bill. Once its review is 
completed, we will provide the committee with a formal position 
on the bill.
    The Department supports S. 1240 with a few minor technical 
corrections, and would like to thank Senator Bennett for 
introducing this bill. S. 1240 will authorize the acquisition 
of land much needed for administrative and visitor facilities 
at the gateway to the popular recreation destinations in 
American Fork Canyon, Utah.
    More specifically, on S. 691, the administration has not 
completed its review. We recognize that American Indians 
certainly have special religious and cultural ties to large 
areas of Federal lands, and we recognize moral and legal 
responsibilities to provide access and use for religious and 
cultural purposes. These responsibilities are addressed in 
several Federal laws, including the American Indian Religious 
Freedom Act, the Archeological Resources Protection Act, and 
others.
    At present, the Washoe Tribe holds a special use permit 
with the Forest Service for most of the uses described in 
section 1(b)(2). These uses have been analyzed and approved 
through our special use permitting process, and appear to meet 
the needs of the tribe. In addition, consideration of fair 
market value for the conveyance and reversionary interests are 
concerns identified by the Department in its preliminary review 
of this bill.
    We plan to conduct a more thorough review of the language 
over the next few weeks, to consult with the Department of the 
Interior, and explore additional options. Once that review is 
completed, we would like to work with the committee and the 
bill's sponsors to resolve concerns that our review might 
identify.
    Specifically to S. 1240, we would like to work with the 
committee to address a few minor technical concerns with the 
bill.
    We look forward to working with you and other members of 
the committee on these important issues, and this concludes my 
testimony. I would be happy to answer any questions.
    [The prepared statement of Ms. Kimbell follows:]

 Prepared Statement of Abigail Kimbell, Acting Associate Deputy Chief, 
               Forest Service, Department of Agriculture

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today. I am Abigail Kimbell, Acting 
Associate Deputy Chief for the National Forest System, USDA Forest 
Service. I am testifying today on S. 691, a bill to direct the 
Secretary of Agriculture to convey certain land in the Lake Tahoe Basin 
Management Unit, Nevada, to the Secretary of the Interior, in trust for 
the Washoe Indian Tribe of Nevada and California, and S. 1240, a bill 
to provide for the acquisition of land and construction of an 
interagency administrative and visitor facility at the entrance to 
American Fork Canyon, Utah.
    The Department supports and is facilitating the use by the Washoe 
Tribe of their historical lands for the purposes identified in S. 691. 
However, the Administration has not completed its review of the bill. 
Once this review is completed, we will provide the Committee with a 
formal position on the bill. Until that time, we strongly urge deferral 
on further action.
    The Department supports S. 1240 with a few minor technical 
corrections and would like to thank Senator Bennett for introducing 
this bill. S. 1240 will authorize the acquisition of land for much 
needed administrative and visitor facilities at the gateway to popular 
recreation destinations in American Fork Canyon, Utah.

                    S. 691--WASHOE TRIBE CONVEYANCE

    S. 691 directs the Secretary of Agriculture to convey 24.3 acres of 
national forest system land within the Lake Tahoe Basin Management Unit 
to the Secretary of the Interior to be held in trust for the Washoe 
Indian Tribe of Nevada and California. The conveyance would be subject 
to a reservation of a non-exclusive easement on a forest road to 
continue public and administrative access to adjacent national forest 
system land. In addition, the bill would grant vehicular access over a 
forest road to the parcel by tribal members under certain 
circumstances. The transfer would occur without consideration.
    S. 691 limits the use of the land by the Washoe Tribe to 
traditional and customary uses, prohibits permanent residential or 
recreational development, prohibits commercial development, and 
requires compliance with environmental standards. The bill provides for 
reversion of the interest to the Secretary of Agriculture should the 
tribe violate the use restrictions.
    The Administration has not completed its review of S. 691. We 
recognize that American Indians have special religious and cultural 
ties to large areas of the Federal lands, and we recognize moral and 
legal responsibilities to provide access and use for religious and 
cultural purposes. These responsibilities are addressed in several 
Federal laws including the American Indian Religious Freedom Act, the 
Archaeological Resources Protection Act and others.
    At present, the Washoe Tribe holds a special use permit with the 
Forest Service for the uses described in Section 1(b)(2). These uses 
have been analyzed and approved through our special use permitting 
process and appear to meet the needs of the Tribe. In addition, 
consideration of fair market value for the conveyance and reversionary 
interests are concerns identified by the Department in its preliminary 
review of this bill. We plan to conduct a more thorough review of the 
language over the next few weeks, to consult with the Department of the 
Interior, and explore additional options. Once that review is 
completed, we would like to work with the Committee and the bill's 
sponsors to resolve concerns that our review might identify.

              S. 1240--AMERICAN FORK CANYON LAND EXCHANGE

    S. 1240 provides for the acquisition of land through an equal value 
exchange in the State of Utah. Approximately 37 acres of private land 
near the mouth of American Fork Canyon would be acquired for the 
construction of administrative and visitor information facilities for 
the Uinta National Forest and Timpanogos Cave National Monument. The 
bill identifies five national forest properties in the State of Utah, 
including bare land parcels and parcels with improvements, that would 
be exchanged for the 37-acre private land parcel.
    The bill requires separate appraisals for each property and 
authorizes a cash equalization payment in excess of the amount 
limitation under current law. If cash equalization payments are made to 
the Secretary, S. 1240 allows the funds to be used to acquire 
administrative sites within the State of Utah and national forest 
system lands. S. 1240 also requires the Secretary of the Interior, upon 
availability of funds, to construct a visitor and administrative 
facility for the Uinta National Forest and Timpanogos Cave National 
Monument on the acquired privately owned land.
    We would like to work with the Committee to address a few, minor 
technical concerns with the bill.
    Mr. Chairman, we look forward to working with you and the other 
members of the Committee on these important issues. This concludes my 
testimony. I would be happy to answer any questions that you may have.

    Senator Wyden. Thank you, Ms. Kimbell. We will have some in 
just a moment.
    Mr. Todd, welcome.

  STATEMENT OF LARRY TODD, DIRECTOR OF OPERATIONS, BUREAU OF 
                          RECLAMATION

    Mr. Todd. Thank you, Mr. Chairman, Senator Thomas. I 
appreciate the opportunity to present the views of the 
Department of the Interior on S. 1028. Under the Pick-Sloan 
Missouri Basin program the Oahe irrigation project in South 
Dakota was authorized in 1968, but construction was terminated 
in 1977. This was due to the lack of support from the local 
conservation district. Construction was not resumed. The lands 
were purchased from Blunt Reservoir and Pierre Canal features 
in the 1970's.
    Since construction was halted, where we could, Reclamation 
has leased these lands back to the original owners as 
preference leases. S. 1028, in general, directs the Secretary 
to convey these lands to the Commission of Schools and Public 
Lands of the State of South Dakota. This transfer is on 
condition that the original landowners, who are the current 
preferential leaseholders, have the option to purchase the 
parcels from the commission.
    The Department of the Interior believes in the concept of 
S. 1028, which allows the original landowners to regain title 
to these lands. S. 1028 directs the transfer of the project 
land holdings with an estimated value of between $6 to almost 
$8 million. This is based on a per-acre value of about 19,200 
acres estimated at $300 to $400 per acre. However, without 
appropriate compensation the administration opposes transfer of 
reclamation project assets out of Federal ownership. Therefore, 
the administration does not support the bill as written.
    We would like to express our appreciation for the work done 
by the sponsors to address a number of issues that have been 
raised in the past, and we look forward to working with the 
sponsors and the committee on the one remaining issue.
    That concludes my testimony, and I would be glad to answer 
any questions.
    [The prepared statement of Mr. Todd follows:]

       Prepared Statement of Larry Todd, Director of Operations, 
                         Bureau of Reclamation

    Good morning. My name is Larry Todd. I am Director of Operations 
for the U.S. Bureau of Reclamation (Reclamation). I appreciate the 
opportunity to present the views of the Department of the Interior 
(Department) on S. 1028, the ``Blunt Reservoir and Pierre Canal Land 
Conveyance Act of 2001.''
    S. 1028 directs the Secretary of the Interior (Secretary) to convey 
certain parcels of land acquired for the Blunt Reservoir and Pierre 
Canal--features of the Oahe Irrigation Project in South Dakota--to the 
Commission of Schools and Public Lands of the State of South Dakota 
(Commission) for the purpose of mitigating lost wildlife habitat, on 
the condition that current preferential leaseholders (the original 
owners of the acquired lands or their descendants) have the option to 
purchase the parcels from the Commission.
    The basic concept of S. 1028--to allow original landowners to 
regain title to lands that Reclamation purchased in anticipation of a 
project that was never built--is straightforward and equitable. 
Further, the sponsors of S. 1028 have addressed a number of the 
technical issues related to liability, land descriptions and 
reimbursement of Federal implementation costs--that were raised in the 
past. However, the Department has concerns with the bill, in particular 
that it fails to adequately protect taxpayers' interests, as it directs 
Reclamation to convey the lands to the State without any consideration 
of the initial taxpayer investment they represent, and cannot support 
the bill in its current form.

                               BACKGROUND

    In preparation for building the Blunt Reservoir and the Pierre 
Canal, Reclamation purchased approximately 19,200 acres of land between 
1972 and 1977. In many cases, Reclamation leased the land back to the 
seller. Currently, Reclamation is leasing some 13,000 acres of Blunt 
Reservoir lands to 19 preferential leaseholders and about 1,100 acres 
of Pierre Canal lands to 29 preferential leaseholders. Although not 
reflected in title documents, the sellers expected they would be able 
to purchase their lands back if they were not needed for the project.
    Nearly three decades later, construction has not commenced for the 
Blunt Reservoir, although some earth-moving has been done for the 
Pierre Canal. Reclamation supports the conclusion that it is unlikely 
this project will be built, and, therefore, Reclamation no longer needs 
to hold title to the acquired lands. Under S. 1028, Reclamation's 
interest in the more than 14,000 acres currently leased by preferential 
leaseholders (the original landowners or their descendants) would be 
conveyed to the South Dakota Commission of Schools and Public Lands, on 
condition that the original landowners have the option to purchase it 
back. If a preferential leaseholder declines to purchase the land, the 
Commission is to convey the parcel to the South Dakota Department of 
Game, Fish, and Parks for wildlife habitat mitigation. Reclamation's 
interest in the 5,000 acres currently unleased or leased to other 
parties would be conveyed to the State of South Dakota Department of 
Game, Fish, and Parks to be used in mitigation of wildlife habitat lost 
as a result of Pick-Sloan development.

                         VALUATION AND PAYMENT

    S. 1028, as introduced, directs Reclamation to transfer land 
holdings worth up to $4-$6 million to the South Dakota State Commission 
of Schools and Public Lands without any payment from the State. The 
Administration opposes such transfers of significant Reclamation 
Project assets to non-Federal entities without compensation. In 
general, such transfers should be for fair market value of the 
property. S. 1028 would be subject to the Pay-As-You-Go requirements of 
the Omnibus Budget Act of 1990.
    I would like to express my appreciation for the work done by the 
sponsors to address a number of technical issues that have been raised 
in the past. We look forward to working with the sponsors and the 
Committee to address the outstanding issue that remains.
    I would be pleased to answer any questions. This concludes my 
formal statement.

    Senator Wyden. All right. I have a few questions, and then 
I want to recognize my colleague as well.
    Ms. Kimbell, when do you expect to complete your review of 
S. 691? I think the question that I have is, given the fact 
that the U.S. Senate has passed this bill already, it just did 
not make it all the way through, it does not seem to me that 
there is any new material to review. At least I cannot find any 
new material to review. I think we want to get this done as 
quickly as possible, and I would like to have you tell us for 
the record when you expect to complete the review of S. 691.
    Ms. Kimbell. We expect to complete the review within the 
next 3 weeks, and there have been--certainly there was a change 
in administration between the time the bill was last heard, and 
as I understand it, this is the first time there has been a 
hearing scheduled to address this bill.
    Senator Wyden. All right. Is there anything that you 
believe is new since the last time the Congress looked at this, 
just your personal opinion?
    Ms. Kimbell. I am not familiar with the bill that was 
presented a year ago.
    Senator Wyden. Okay. I hope that you will get up to speed 
on it, because that is the point of having you come, is to be 
familiar with issues like this.
    Ms. Kimbell. Well, I am familiar with this bill, certainly, 
but I am not familiar if there--I am not aware that there are 
any changes or modifications from what was considered a year 
ago.
    Senator Wyden. That is our understanding, is there are no 
changes or modifications, and that is why we would like to have 
this done expeditiously, and if you have told us that it is 
going to get done in 3 weeks, that is helpful, and please know 
that we want to move ahead as quickly as we possibly can.
    Another couple of questions for you is, S. 1240, the Utah 
exchange, authorizes but does not require the Secretary to 
enter into the land exchange. It is our understanding that you 
will complete the NEPA process prior to completing the 
exchange. If significant environmental resources are discovered 
on the land during the NEPA analysis, would the Federal 
Government retain those lands, or how would you proceed there?
    Ms. Kimbell. Certainly, NEPA would be conducted to address 
the proposed land exchange, and I am not sure, Senator, that I 
understood the final part of your question.
    Senator Wyden. I think what we want to know is, if 
significant environmental resources are discovered on the land 
during the NEPA analysis, what would be the Federal 
Government's rights at that point with respect to retaining the 
lands?
    Ms. Kimbell. Well, certainly in working out the details of 
the land exchange there could be lands that might be retained, 
there could be restrictions applied to the uses of the land, as 
needed to protect the identified resources.
    Senator Wyden. And you would see informing the public 
through the NEPA process about significant environmental 
resources?
    Ms. Kimbell. Certainly.
    Senator Wyden. Okay. S. 1240 also exempts the unit rule 
described in the uniform appraisal standards for Federal land 
acquisitions in determining the value of the land. Could you 
tell us what this is, and why it is exempted?
    Ms. Kimbell. The unit rule is used as a way of combining a 
set of properties and in a way discounts the values on a set of 
properties if they are presented as a package. This bill 
proposes to not use that unit rule, and to have each of the 
individual parcels stand alone when they are valued.
    Senator Wyden. Mr. Fulton, a question for you. In your 
testimony, you requested S. 1451, conveying public lands to 
Clark County, Nevada, be amended to require the county to 
reimburse BLM for survey costs and other administrative costs 
associated with the transfer. Any idea what the total costs 
would be here?
    Mr. Fulton. No, but I am sure we could get that information 
for the county and for the committee.
    Senator Wyden. Okay. Can we have that within the next 10 
days for the record?
    Mr. Fulton. Yes, I think so.
    Senator Wyden. Very good.
    One question for you, Mr. Todd. Regarding S. 1028, it is 
our understanding the Bureau of Reclamation has never removed 
various stockpiled materials that are brought in for the never-
finished construction for the dam and other facilities. Fences, 
road detours, and other items remain on the land, and the 
property would be conveyed in an as-is condition. Is there a 
process envisaged whereby these lands eventually would be 
cleaned up and restored to their original condition?
    Mr. Todd. I believe that there are two classes of land that 
we might be talking about here. One is the easements on Pierre 
Canal, and to date there has been no maintenance or cleanup of 
those, and that is something that we certainly would look at.
    The other one is that they are as-is condition, and would 
be transferred as-is, and the cleanup would then I believe go 
to the State as that responsibility.
    Senator Wyden. Senator Thomas.
    Senator Thomas. Mr. Fulton, in H.R. 223, what is the status 
of the land now, when it was transferred? What is it?
    Mr. Fulton. The land was transferred under 1993 law to the 
county for their eventual disposal, and it is my understanding 
that the concern has been the complexity of the land ownership 
patterns.
    Senator Thomas. What status is it? Is it a lease? Do they 
own it? Do you own it? Who owns it?
    Mr. Fulton. Well, BLM used to own it, and now the county 
owns it.
    Senator Thomas. They do?
    Mr. Fulton. It is my understanding that that transfer is--
--
    Senator Thomas. I thought one of their--then what 
difference is it to you what they do with it, if they already 
own it?
    Mr. Fulton. Well, it's the clear title, the transfer of the 
title from the BLM ownership to the county.
    Senator Thomas. So they really do not own it.
    Mr. Fulton. Right. The purpose of the law is to transfer 
the title and getting the title searches completed is the 
request of the extension.
    Senator Thomas. So it is still BLM.
    Mr. Fulton. It is still BLM, but under the provisions of 
the law, we are in the process of transferring it.
    Senator Thomas. It is a long process.
    Mr. Fulton. It is a very long process.
    Senator Thomas. You indicated, I believe, Mr. Todd, on S. 
1028 that you did not support the bill.
    Mr. Todd. Yes, that is correct, as it is written now.
    Senator Thomas. Why not?
    Mr. Todd. Mainly because there is no compensation given to 
the Federal Government for the transfer of these lands to the 
State.
    Senator Thomas. I am not very familiar with it. How did it 
become Federal land in the first place?
    Mr. Todd. These lands were purchased through the 
reclamation land purchase program under a project, so they were 
purchased from the landowners in the area back in the 1970's.
    Senator Thomas. Then when nothing happened, they were 
leased back.
    Mr. Todd. They were leased back, yes, that is correct.
    Senator Thomas. I see, and now this proposal would transfer 
them back to private ownership.
    Mr. Todd. It would transfer them back to the State, and 
then it would give those preferenced lessees an opportunity to 
buy back those lands.
    Senator Thomas. There would be no revenue to the BLM.
    Mr. Todd. No revenue back to the United States, no.
    Senator Thomas. Good reason to be opposed to it, I guess.
    Ms. Kimbell, what are the arrangements now with the tribes 
in terms of using these lands?
    Ms. Kimbell. For the last 2 years the Washoe Tribe has had 
a special use permit for the use of a 5-acre parcel that 
includes beach front on Lake Tahoe for cultural and religious 
purposes, and it includes a camp-out for up to 80 people with 
some provisions for sanitation and some other things, and the 
tribe applied for that and was granted a permit both for last 
year and for this year.
    Senator Thomas. But that was just 5 acres, and now you are 
talking about 24, or something.
    Ms. Kimbell. Correct.
    Senator Thomas. I guess my inquiry is, could you make an 
arrangement with them that they could fulfill their needs 
without a land transfer, without an ownership transfer?
    Ms. Kimbell. Well, we believe we have been fulfilling the 
requested needs by providing the special use permit, and 
certainly we could look at other arrangements in the special 
use permit.
    Senator Thomas. Normally, I am advocate of disposing of 
some Federal lands out in our country, but as I mentioned to 
him before, there is a precedent issue here that is a little 
bit troublesome.
    Ms. Kimbell. And we would like to examine the bill further, 
but there were some concerns.
    Senator Thomas. I certainly think that some arrangements 
ought to be made for the tribe to be able to use them. Whether 
it requires a fee transfer or not is, I suppose, a question.
    Thank you.
    Ms. Kimbell. Thank you.
    Senator Wyden. I thank my colleague.
    Let me just say to our panel, we are dealing with five 
bills here, S. 691, H.R. 223, S. 1028, S. 1451, and S. 1240, 
and in a nutshell, each of these bills moves Federal land into, 
as far as I can tell, State, county, or private ownership, so 
we ought to be able together, working in the administration and 
Congress, Democrats and Republicans in this committee and 
Congress, we ought to be able to work on these bills on a 
bipartisan way and get them done.
    I mean, much of this has already been accomplished through 
a lot of efforts in local communities across the country. In 
the case of one of Senator Reid's bills it has already passed 
U.S. Senate once. Our final request is that you work with us so 
that in a matter of weeks we can move these bills ahead. They 
are all important, constructive approaches in the spirit that 
Senator Craig and I have really called for in terms of trying 
to address the issues before this subcommittee.
    Do you all have anything you would like to add, or 
otherwise we will excuse you and end the hearing.
    Mr. Fulton. Thank you.
    Mr. Todd. Thank you.
    Senator Wyden. All right. The subcommittee is adjourned.
    [Whereupon, at 3:14 p.m., the hearing was adjourned.]

                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

  Statement of John L. Cooper, Cabinet Secretary, Department of Game, 
                 Fish and Parks, State of South Dakota

    Mr. Chairman and members of the Subcommittee, my name is John L. 
Cooper. I am the Cabinet Secretary for the State of South Dakota, 
Department of Game, Fish and Parks. I want to thank you for the 
opportunity to present testimony in strong support of S. 1028, which is 
before you today.
    In order to better understand the goals and objectives of S. 1028, 
please allow me to present brief background information regarding the 
history surrounding the status of the lands known as the ``Blunt 
Reservoir'' and ``Pierre Canal'' lands.
    S. 1028 is a culmination of more than 2 years of discussion with 
local landowners, the South Dakota Water Congress, U.S. Bureau of 
Reclamation, local legislators, representatives of South Dakota 
sportsmen groups and affected local citizens and landowners. It lays 
out a plan to convey certain parcels of land acquired for the Blunt 
Reservoir and Pierre Canal features of the Oahe Irrigation Project, 
South Dakota, to the Commission of School and Public Lands of the State 
of South Dakota for the purpose of mitigating lost wildlife habitat and 
provides the option to preferential leaseholders to purchase their 
original parcels from the Commission.
    The Oahe Unit was originally approved as part of the overall plan 
for water development in the Missouri River Basin which was 
incorporated in the Flood Control Act of 1944. Subsequently, Public Law 
90-453, 90th Congress, dated August 3, 1968, authorized construction 
and operation of the Initial Stage. The primary purposes of the Oahe 
Unit as authorized was to provide for the irrigation of 190,000 acres 
of farmland, conserve and enhance fish and wildlife habitat and promote 
recreation and tourism along with other stated goals related to the 
general plans set out in the Secretary of the Interior report dated 
June 1965.
    The project came to be known as the Oahe Irrigation Project and the 
principal features of the initial stage of the project contained the 
Oahe pumping plant located near Oahe Dam to pump water from the Oahe 
Reservoir, a system of main canals, including the Pierre Canal, running 
22 miles east from the Oahe Reservoir, and the establishment of 
regulating reservoirs, including the Blunt Dam and Reservoir located 
approximately 35 miles east of Pierre, South Dakota.
    Under the Act of August 3, 1968, 42,155 acres were authorized to be 
acquired by the Federal government in order to construct and operate 
the Blunt Reservoir feature of the Oahe Irrigation Project. Land 
acquisition for the proposed Blunt Reservoir feature began in 1972 and 
continued through 1977. A total of 17,878 acres were actually acquired 
from willing sellers.
    The first land for the Pierre Canal feature was purchased in July 
1975 and included the 1.3 miles of Reach 1B. An additional 21-mile 
reach was acquired from 1976 through 1977, also from willing sellers.
    Organized opposition to the Oahe Irrigation Project surfaced in 
1973 and continued to build until a series of public meetings was held 
in 1977 to determine if the project should continue. In late 1977, the 
Oahe project was made a part of President Carter's Federal Water 
Project review process.
    The Oahe project construction was then halted on September 30, 
1977, when Congress did not include funding in the FY1978 
appropriations. Thus, all major construction contract activities ceased 
and land acquisition was halted.
    The Oahe Project remained an authorized water project with a bleak 
future and minimal chances of being completed as authorized. 
Consequently, the Department of the Interior, through the Bureau of 
Reclamation, gave preference to those persons who had willingly sold 
their lands to project acquisition the right for them and their 
descendents to lease those lands and use them as they had in the past 
until needed by the Federal government for project purposes. These 
lands have come to be known as ``preferential lease lands.''
    During the period from 1978 until the present, the Bureau of 
Reclamation has administered these lands on a preference lease basis 
for those original landowners or their descendants and nonpreferential 
lease parcels for any lands under lease to persons who were not 
preferential leaseholders. Currently, the Bureau of Reclamation 
administers the Blunt Reservoir lands as 13,775 acres being 
preferential leases and 5,462 acres being non-preferential leases. I 
have previously provided your Subcommittee staff copies of GIS maps 
noting both the location and the purchased acreage amounts acquired by 
the Bureau of Reclamation (BOR) and currently managed as 
``preferential'' and ``non-preferential'' lease lands.
    As I noted previously, the Oahe Irrigation Project is directly 
related to the overall project purposes of the Pick-Sloan Missouri 
Basin program authorized under the Flood Control Act of 1944. Under 
this program, the U.S. Army Corps of Engineers constructed four major 
dams across the Missouri River in South Dakota. The two largest 
reservoirs formed by these dams, Oahe Reservoir and Sharpe Reservoir, 
caused the loss of approximately 221,000 acres of fertile, wooded 
bottomland which constituted some of the most productive, unique and 
irreplaceable wildlife habitat in the State of South Dakota. This 
included habitat for both game and non-game species, including several 
species which are now listed as threatened or endangered. Meriwether 
Lewis, while travelling up the Missouri River in 1804 on his famous 
expedition, wrote in his diary, ``Song birds, game species and 
furbearing animals abound here in numbers like none of the party has 
ever seen. The bottomlands and cottonwood trees provide a shelter and 
food for a great variety of species, all laying their claim to the 
river bottom.''
    Under the provisions of the Wildlife Coordination Act of 1958, the 
State of South Dakota has developed a plan to mitigate a part of this 
lost wildlife habitat as authorized by Section 602 of Title VI of 
Public Law 105-277, October 21, 1998 known as the Cheyenne River Sioux 
Tribe, Lower Brule Sioux Tribe, and State of South Dakota Terrestrial 
Wildlife Habitat Restoration Act. The State's habitat mitigation plan 
has received the necessary approval and interim funding authorizations 
under Sections 602 and 609 of Title VI.
    The State's habitat mitigation plan requires the development of 
approximately 27,000 acres of widlife habitat in South Dakota. 
Transferring the 5,462 acres of non-preferential lease lands in the 
Blunt Reservoir feature to the South Dakota Department of Game, Fish 
and Parks would constitute a significant step toward satisfying the 
habitat mitigation goal as agreed upon by the U.S. Army Corps of 
Engineers, the U.S. Fish and Wildlife Service, and the South Dakota 
Department of Game, Fish and Parks.
    Both the Blunt Reservoir and Pierre Canal non-preferential lease 
lands offer considerable opportunities for development of a natural 
resource base which would benefit the general public and the local 
economy. Located within a 15-30 minute drive of Pierre, these 
productive lands offer management options for a multitude of wildlife 
and recreational activities including aquatic, wetland, riparian and 
upland habitat development. They would offer upland bird, waterfowl and 
deer hunting in addition to hiking, biking, walking, camping and 
watchable wildlife activities. Opportunities for water-based 
recreation, such as canoeing and fishing, could be developed with 
appropriate water management and small dam development. Several 
sportsmen and conservation groups have expressed a strong interest in 
partnering with my Department to develop this natural resource base.
    I would like for the Subcommittee to note that as we developed this 
legislation many meetings occurred among the local landowners, South 
Dakota Department of Game, Fish and Parks, business owners, local 
legislators, the Bureau of Reclamation, the U.S. Fish and Wildlife 
Service, as well as representatives of sportsmen groups. It became 
apparent to all of us who worked on this issue that the best balance 
for the local economy, tax base and wildlife mitigation issues would be 
to allow the preferential leaseholders to have an option to purchase 
the land from the Commission of School and Public Lands after the 
preferential lease parcels are conveyed to the Commission. This option 
will be available for a period of 10 years after the date of conveyance 
to the Commission. During the interim period, the preferential 
leaseholders shall be entitled to continue to lease from the 
Commissioner under the same terms and conditions they have enjoyed with 
the Bureau of Reclamation. If the preferential leaseholder fails to 
purchase a parcel within the 10-year period, that parcel will be 
conveyed to the South Dakota Department of Game, Fish and Parks to be 
credited toward the 27,000-acre habitat mitigation plan. Frankly, there 
is an issue of ``fairness'' for the former owners of this land who 
ended up having their farms and ranches placed into a sort of ``federal 
limbo'' for the past 24 years.
    In summary, Mr. Chairman, the State of South Dakota, the Federal 
government, the original landowners, the sportsmen and all wildlife 
will benefit from this bill. It provides for a fair and just resolution 
to the private property and environmental problems caused by the 
construction and/or planned construction of the now defunct Oahe 
Irrigation Project some 25 years ago. I believe we have waited long 
enough to right some of the wrongs suffered by our landowners and our 
wildlife resources. S. 1028 offers a great opportunity to settle a 
variety of concerns and move forward with a plan to better the area for 
both public and private interests.
    My Governor, my Department and the various interests I represent 
here today are hopeful that your Subcommittee will view S. 1028 
favorably and see it as it was developed--a consensus piece of 
legislation aimed at solving several long-term problems affecting 
central South Dakota. Our goal is to strongly support a bill that will 
allow meaningful wildlife habitat mitigation to begin, give some 
certainty to local landowners who sacrificed their lands for a defunct 
federal project they once supported, ensures the viability of the local 
land base and tax base, and provides well maintained and managed 
wildlife habitat and recreation areas which provide a variety of 
outdoor experiences for our citizens and visitors.
    On behalf of the State of South Dakota, I certainly urge your 
support and passage of S. 1028. Thank you for the opportunity to 
present my views before you today.

                                 ______
                                 
     Statement of Darla Pollman Rogers, Meyer & Rogers, Pierre, SD

    Members of the Subcommittee, my name is Darla Pollman Rogers. I am 
an attorney in private practice in Pierre, South Dakota, and I 
represent preferential leaseholders in the Blunt Reservoir and Pierre 
Canal areas. Thank you for the opportunity to present testimony to you 
on behalf of the preferential leaseholders.
    The preferential leaseholders strongly support S. 1028. Since 
becoming aware of legislative proposals concerning the Pierre Canal and 
Blunt Reservoir lands, as a group the preferential leaseholders have 
spent many hours negotiating for and providing input into S. 1028. 
Please allow me to give you a brief background of the history 
surrounding the long struggle this small group of landowners has had in 
attempting to regain ownership of their land.
    The Blunt Reservoir land and the Pierre Canal land were originally 
part of the Oahe Unit, James Division, of the Oahe Irrigation Project 
(hereinafter called the ``Oahe Project''), which was authorized as a 
component of the Pick-Sloan Plan to provide multi-purpose use of the 
Missouri River water in South Dakota. The Oahe Project was authorized 
and funded by Congress nearly 30 years ago, but the project never 
materialized. The government did, however, acquire land for the 
project, and the Pierre Canal and Blunt Reservoir lands were among the 
thousands of acres acquired by the federal government.
    I use the word ``acquire'' because the circumstances of the 
acquisitions were, at best, misleading. The landowners did not want to 
give up land that was an integral part of their operations. They were 
told, however, that they could sell their land to the Government 
voluntarily, or it would be condemned. If they sold voluntarily, they 
could lease the land back from the Bureau of Reclamation (which 
administered and managed the land), at a lease rate that would not 
increase, until the project was completed (thus the term 
``preferential'' leaseholders). These landowners were also told that if 
for some reason the project was not completed, they would be able to 
purchase their land back at the same price they were paid for it.
    You may ask how I know what representations were made to the 
original landowners. I know because they have told me, and I know 
because I was personally involved. My father, Leonard Pollman, was an 
original landowner, and we are preferential leaseholders today. In 
fact, my father's case is a good example of the unfulfilled promises 
made to the original landowners at the time they gave up their land. My 
father did not want to go through costly condemnation litigation, so he 
reluctantly agreed to sell his land to the Government, after he was 
told he could lease it back at the same lease rate until his land was 
needed for the project. In the event the land was not used, he was told 
he could buy it back for the same price for which he sold it. He asked 
the representative from the Bureau to please put that assurance in 
writing. Attached hereto as Exhibit A * is a copy of the written 
``assurance'' of the Bureau representative, Arthur E. Mischke. The 
original lease, dated December 19, 1973, was for $3,700.00. The 
``maximum rate'' of $3,700.00 has steadily increased over the years, 
and today is nearly double that amount.
---------------------------------------------------------------------------
    * Exhibits A and B have been retained in subcommittee files.
---------------------------------------------------------------------------
    Similar representations were made to other landowners at the time 
of sale. Attached hereto as Exhibit B is another ``assurance'' made by 
a Bureau representative to Duane and Barb Winkler, landowners in the 
Blunt Reservoir area. As in the case of Mr. Pollman, the annual 
leaseback rate has more than doubled over the years, yet their Land 
Purchase Contract has not become null and void.
    It is important to know the sincere and honest intentions of these 
landowners. They did not wish to be uncooperative, but they wanted to 
protect their interest in the land they were in essence being forced to 
sell, for as long as possible.
    That is still the intent of these same landowners today. After all 
these years, they are still trying to reacquire their land. While most 
of them have leased the land since the government acquired it, the 
lease rates have not remained the same, but have increased dramatically 
over the years. And to date, these landowners have still not had the 
opportunity to buy back their land, as promised.
    In 1981, deauthorization of the Oahe Project was considered by this 
very committee. These same landowners testified at a hearing in front 
of the Subcommittee on Water and Power of the Committee on Energy and 
Natural Resources, United States Senate, as follows:

          Their (the original landowners') position is that they should 
        have the first chance to buy back their land . . . This 
        dispositional scheme must be written into the deauthorization 
        legislation itself.

    The landowners were supported in their position by the South Dakota 
Legislature, which passed a Concurrent Resolution in 1980 favoring 
disposing of the land acquired for the Oahe Project by first offering 
it to the original landowners. Unfortunately, the matter was not 
resolved in 1981.
    The issue of deauthorization of the Oahe Project resurfaced again 
in January 1998, in the form of S. 1341. The Secretary of the South 
Dakota Department of Game, Fish and Parks sent a letter to the 
preferential leaseholders (among others) concerning deauthorization of 
the Pierre Canal and Blunt Reservoir features of the Oahe Project and 
transferring those lands in Fee Title to the State of South Dakota for 
wildlife mitigation. The landowners were invited to a public hearing in 
late January 1998, and many landowners attended the meeting. They were 
told, in essence, that acquisition of the Pierre Canal and Blunt 
Reservoir by South Dakota Game, Fish and Parks was part of a much 
larger effort to restore wildlife habitat that was destroyed by the 
construction of the Missouri River Dam. The ultimate effect of S. 1341 
would have been that these preferential leaseholders would have lost 
their land, probably within a ten-year period.
    So the struggle began all over again. The preferential leaseholders 
had numerous meetings with each other, with Game, Fish and Parks and 
with their South Dakota Congressional delegates. Senator Daschle 
understood the long struggle of these landowners and their unique 
situation and agreed to champion their cause. S. 1178 was the result of 
said meetings, and it was introduced to you in October 1999. We 
supported S. 1178, but unfortunately, it did not survive the political 
process.
    Since the defeat of S. 1178, the meetings among landowners, Game 
Fish and Parks, South Dakota Congressional Delegates, the Commissioner 
of School and Public Lands, and the Bureau of Reclamation have 
continued. With Secretary John Cooper acting as facilitator, we stayed 
in touch intermittently in 2000, and then held a series of working 
sessions in 2001. The result of these efforts is before you today in S. 
1028. In many respects, it is similar to S. 1178. Under S. 1028, the 
Blunt Reservoir feature of the Oahe Project will be deauthorized. The 
preferential lease land will be transferred to the South Dakota 
Commission of School and Public Lands, and the preferential 
leaseholders in the Blunt Reservoir and Pierre Canal areas will have 
the opportunity to buy back the land that was acquired from them for a 
project that never materialized. Non-preferential lease parcels, 
unleased parcels, and preferential lease parcels that are not 
repurchased by the original landowner (or his or her descendants) are 
conveyed to Game, Fish and Parks for the purposes of wildlife habitat 
mitigation.
    S. 1028, however, is a better bill than its predecessors, because 
in this round of negotiations, the interested parties tried to resolve 
all concerns and questions that were articulated with the introduction 
of S. 1178. For example, the terms ``nonpreferential leaseholder'' and 
``preferential leaseholder'' were redefined to make sure there are no 
arguments or questions about who fits into the categories. The issue of 
liability is addressed in S. 1028, to response to concerns raised by 
the Bureau. The Bureau participated in the working sessions and 
submitted the liability language included in the bill. Revisions were 
made in response to concerns of county officials. Funding 
clarifications were made in response to concerns of the Commissioner of 
School and Public Lands. A perpetual easement along the Pierre Canal 
land for future water development was added to appease water 
development concerns.
    S. 1028 is the end result of countless hours of drafting and 
redrafting, which has come about as the result of input, negotiations, 
and compromise of all parties directly affected by deauthorization of 
the Blunt Reservoir feature of the Oahe Project. A true consensus has 
been reached in this bill. My clients, this small group of preferential 
leaseholders who have struggled all these years to have the opportunity 
to repurchase their land, are in full support of S. 1028. It is an 
appropriate resolution of a long-standing situation.
    On behalf of the preferential leaseholders of the Blunt Reservoir 
and Pierre Canal lands, I urge your support and passage of S. 1028.
    Thank you for the opportunity to present this testimony.


</pre></body></html>
